APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(March 19, 2021) . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States Court of
Appeals for the Seventh Circuit
(March 19, 2021) . . . . . . . . . . . . . . App. 8
Appendix C Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois
Eastern Division
(August 27, 2018) . . . . . . . . . . . . App. 23
Appendix D Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois
Eastern Division
(March 30, 2020) . . . . . . . . . . . . . App. 40
Appendix E Judgment in a Civil Case in the
United States District Court for the
Northern District of Illinois
(March 30, 2020) . . . . . . . . . . . . . App. 58
Appendix F Order Denying Rehearing in the
United States Court of Appeals for the
Seventh Circuit
(April 12, 2021) . . . . . . . . . . . . . . App. 60

App. 1

APPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
No. 20-1530
[Filed: March 19, 2021]
__________________________________________
VAUN MONROE,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
COLUMBIA COLLEGE CHICAGO
)
and BRUCE SHERIDAN,
)
)
Defendants-Appellees.
)
__________________________________________)
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-05837 — Thomas M. Durkin, Judge.
ARGUED SEPTEMBER 22, 2020
—
DECIDED MARCH 19, 2021
Before SYKES, Chief Judge, and FLAUM and
ROVNER, Circuit Judges.

App. 2
ROVNER, Circuit Judge. Vaun Monroe, who was
denied tenure at Columbia College of Chicago, has sued
the College on a variety of theories alleging principally
that the adverse tenure decision was tainted by race
discrimination. Count IV of Monroe’s amended
complaint asserts a claim under Title VI of the Civil
Rights Act of 1964, 42 U.S.C. § 2000d, for being subject
to discrimination in a federally-funded program or
activity. R. 50 at 22–23. In a separate order issued
contemporaneously with this opinion, we resolve
Monroe’s other claims against the College and his
former department chairperson, Bruce Sheridan. In
this opinion, we address a question of first impression
in this circuit as to which state statute of limitations
applies to Title VI claims. See Allen v. Bd. of Governors
of State Colls. & Univs., 78 F.3d 586 (table), 1996 WL
102678, at *2 (7th Cir. Mar. 6, 1996) (unpublished
order) (reserving this question).
Title VI provides that “[n]o person in the United
States shall, on the ground of race, color, or national
origin, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under any
program or activity receiving Federal financial
assistance.” § 2000d. The statute does not specify a
limitations period, so we look to the limitations period
specified by Illinois law for the most analogous type of
claim, see generally Bd. of Regents of Univ. of State of
N.Y. v. Tomanio, 446 U.S. 478, 483–84, 100 S. Ct. 1790,
1794–95 (1980);1 and the pertinent question here is
1

Congress has specified a catchall four-year statute of limitations
for federal claims, but only for civil actions “arising under an Act
of Congress enacted after the date of the enactment of this section

App. 3
whether the correct period is the state’s five-year
catchall limitations period for civil claims, see 735 ILCS
5/13-205, or the two-year period for personal injuries,
see 735 ILCS 5/13-202. If the latter limitations period
governs, as the district court held, Monroe v. Columbia
Coll. Chicago, 2020 WL 1503593, at *4–5 (Mar. 30,
2020), then there is no doubt that Monroe’s Title VI
claim is untimely, as it was filed more than two years
after the discriminatory actions he challenges in this
suit took place.
Although the district courts in this circuit are
divided as to the appropriate limitations period to
reference for Title VI claims,2 it appears that every

[on December 1, 1990].” 28 U.S.C. § 1658(a). For actions authorized
by previously-enacted statutes, including Title VI, courts continue
to borrow the limitations period from state law. See Jones v. R.R.
Donnelley & Sons Co., 541 U.S. 369, 382, 124 S . Ct. 1836, 1845
(2004).
2

Compare Monroe, 2020 WL 1503593, at *4–5; Rogers v. Allen
Superior Ct., 2017 WL 879635, at *3 (N.D. Ind. Mar. 6, 2017);
Robbins v. DePaul Univ., 2014 WL 7403381, at *2 & n.2 (N.D. Ill.
Dec. 29, 2014); Davis v. City of Springfield, 2012 WL 5471951, at
*7–8 (C.D. Ill. Nov. 9, 2012) (applying Illinois’ and Indiana’s twoyear statutes of limitations for personal injuries), with Edwards v.
Alexander Cnty. Hous. Auth., 2021 WL 101340, at *5 (S.D. Ill. Jan.
12, 2021); Brewer v. Bd. of Trustees of Univ. of Ill., 407 F. Supp. 2d
946, 961 (C.D. Ill. 2005), j. aff’d on other grounds, 479 F.3d 908
(7th Cir. 2007); Allen v. Bd. of Governors of State Colls. & Univs.,
1993 WL 69674, at *2 (N.D. Ill. Mar. 11, 1993), reconsideration
denied, 1993 WL 462856 (N.D. Ill. Nov. 9, 1993), j. aff’d on other
grounds, 78 F.3d 586 (table), 1996 WL 102678 (7th Cir. Mar. 6,
1996); Lewis v. Russe, 713 F. Supp. 1227, 1232 (N.D. Ill. 1989)
(applying Illinois’ five-year catchall limitations period for civil
claims), j. summarily aff’d, 972 F.2d 351 (table), 1991 WL 352444

App. 4
other circuit to address the issue has agreed that the
court should reference the state limitations period for
personal injury torts. See Sewell v. Monroe City Sch.
Bd., 974 F.3d 577, 583 (5th Cir. 2020); Thomas v.
Advance Hous., Inc., 475 F. App’x 405, 406–07 (3d Cir.
2012) (per curiam) (non-precedential decision); Jersey
Heights Neighborhood Ass’n v. Glendening, 174 F.3d
180, 187 (4th Cir. 1999); Rozar v. Mullis, 85 F.3d 556,
561 (11th Cir. 1996); Egerdahl v. Hibbing Cmty. Coll.,
72 F.3d 615, 618 (8th Cir. 1995); Taylor v. Regents of
Univ. of Cal., 993 F.2d 710, 712 (9th Cir.1993); Baker
v. Bd. of Regents of State of Kansas, 991 F.2d 628,
630–32 (10th Cir. 1993).
Our sister circuits have emphasized that a Title VI
claim, although aimed at the discriminatory use of
federal funds, is one that ultimately seeks to vindicate
personal rights. As the Tenth Circuit has explained:
The goal of Title VI is to “safeguard against the
use of federal funds in a way that encourages or
permits discrimination.” 1964 U.S.C.C.A.N.
2391, 2510–13 (1964); see also Regents of Univ.
of California v. Bakke, 438 U.S. 265, 98 S. Ct.
2733 (1978); Brown v. Board of Educ. of Topeka,
892 F.2d 851, 887 (10th Cir.1989). Title VI is a
civil rights statute, and we believe that it is
closely analogous to [42 U.S.C.] sections 1983
and 1981. The language of Title VI specifically
(7th Cir. April 29, 1991) (unpublished order). See also C.S. v.
Couch, 843 F. Supp. 2d 894, 906 n.15 (N.D. Ind. 2011) (noting that
“[i]n the Seventh Circuit … the statute of limitations for Title VI
claims is somewhat unclear” but finding it unnecessary to reach
the issue).

App. 5
refers to discrimination against a “person.” This
language is similar to that in sections 1983 and
1981, which language protects a “person” from
deprivation of rights, and which provides equal
rights under the law to all “persons.” An injury
resulting from discrimination produces
impairments and wounds to the rights and
dignities of the individual. Burke v. United
States, 929 F.2d 1119, 1121–22 (6th Cir.1991),
rev’d on other grounds, 504 U.S. 229, 112 S. Ct.
1867 (1992).
Baker, 991 F.2d at 631. See also Jersey Heights
Neighborhood Ass’n, 174 F.3d at 187; Rozar, 85 F.3d at
561.
We agree that a Title VI claim is analogous to a
state claim for personal injuries to the extent that it
seeks recompense for an injury to one’s individual
rights. As such, it should be governed by the
limitations period that a state has specified for
personal injury claims. In Illinois, that is two years.
735 ILCS 5/13-202. See Bush v. Commonwealth Edison
Co., 990 F.2d 928, 933 (7th Cir. 1993) (applying same
statute of limitations to claims under section 504 of
Rehabilitation Act of 1973, 29 U.S.C. § 794, which
prohibits disability discrimination in federally funded
programs).
In resisting that conclusion, Monroe relies on this
court’s 40-plus year-old decision in Beard v. Robinson,
563 F.2d 331, 338 (7th Cir. 1977), which broadly stated
that “the Illinois five-year statute of limitations applies
to statutory claims brought under the Civil Rights
Acts.” But Beard specifically concerned claims under

App. 6
sections 1981 and 1983 and Bivens v. Six Unknown
Named Agents of Fed. Bureau of Narcotics, 403 U.S.
388, 91 S. Ct. 1999 (1971), not Title VI. Moreover, after
Beard was decided, the Supreme Court held that the
applicable statute of limitations for section 1981 and
section 1983 claims is the state period for personal
injury torts. See Wilson v. Garcia, 471 U.S. 261,
276–80, 105 S. Ct. 1938, 1947–49 (1985) (§ 1983);
Owens v. Okure, 488 U.S. 235, 109 S. Ct. 573 (1983)
(same); Goodman v. Lukens Steel Co., 482 U.S. 656,
660-62, 107 S. Ct. 2617, 2620–21 (1987) (§ 1981).3
“‘Title VI is a civil rights statute [that is] closely
analogous to sections 1983 and 1981.’ Indeed, a
plaintiff suing a federally-supported program for racial
discrimination may bring a claim under any one of
these three laws.” Egerdahl, 72 F.3d at 618 (quoting
Baker, 991 F.2d at 631). Therefore, we see no reason to
treat Title VI claims differently for limitations
purposes. See Baker, 991 F.2d at 631 (“Our general
characterization of Title VI claims as actions for injury
to personal rights promotes a consistent and uniform
framework by which suitable statutes of limitations
can be determined for civil rights claims.”) (citation
omitted); see also Egerdahl, 72 F.3d at 618 (“the federal
interest in uniformity and certainty” counsels in favor
of treating Title VI claims similarly with sections 1981
and 1983 claims for limitations purposes); Rozar, 85
F.3d at 561 (same).

3

In the wake of Wilson, we have likewise applied the same
personal injury statute of limitations to Bivens claims. See
Delgado-Brunet v. Clark, 93 F.3d 339, 342 (7th Cir. 1996).

App. 7
The two-year period in Illinois for personal injury
claims applies, and Monroe’s Title VI claim was
therefore untimely. The district court properly entered
summary judgment against Monroe as to Count IV of
the amended complaint on this basis.
AFFIRMED

App. 8

APPENDIX B
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with
Fed. R. App. P. 32.1
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
No. 20-1530
[Filed: March 19, 2021]
Argued September 22, 2020
Decided March 19, 2021
Before
DIANE S. SYKES, Chief Judge
JOEL M. FLAUM, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
__________________________________________
VAUN MONROE,
)
Plaintiff-Appellant,
)
)
v.
)
)
COLUMBIA COLLEGE CHICAGO
)
and BRUCE SHERIDAN,
)
Defendants-Appellees.
)
__________________________________________)

App. 9
Appeal from the United States
District Court for the Northern
District of Illinois, Eastern
Division.
No. 1:17-cv-05837
Thomas M. Durkin,
Judge.
ORDER
After he was denied tenure at Columbia College of
Chicago, Vaun Monroe sued Columbia and his former
department chairperson, Bruce Sheridan, on various
federal claims of race discrimination and on state law
theories. The district court resolved all of the claims in
favor of the defendants on motions to dismiss and for
summary judgment. A separate opinion issued
contemporaneously with this order resolves Monroe’s
Title VI claim. In this order, we affirm the judgment as
to his other claims.
I.
Monroe was hired by Columbia College as a tenuretrack faculty member in 2007. He was the first Black
man hired as a tenure-track instructor in the college’s
film and video department. Sheridan was the chairman
of that department.
During his first year, Monroe received several
negative course evaluations. (Among other criticisms,
some students objected to his focus on works by Black
artists.) Sheridan met with Monroe to discuss the
evaluations. Monroe, concerned about the weight

App. 10
Sheridan was placing on student evaluations, pointed
out that the criticisms might be the result of implicit
bias against faculty members of color. Sheridan
accused him of “playing the race card” and not
assuming responsibility for his classroom. During
Monroe’s second year, a student created a raciallycharged website about him, which department
personnel told him to ignore.
Monroe underwent a formal review in his third year
as a tenure-track faculty member, which was designed
both to give him feedback on his performance and
produce a recommendation as to whether he should
continue on the tenure track or be terminated.
Sheridan participated in (indeed, directed) the faculty
review despite questions as to whether he should do so
as department chair; he raised the issue of Monroe’s
critical student evaluations. The participating faculty
members ultimately voted yes/no on each of three
performance areas considered for tenure: Monroe
received zero yes votes on teaching and curriculum
development, 16 yes votes and one no vote on creative
or scholarly work, and nine yes and eight no votes on
community service. Sheridan and the Dean of Media
Arts subsequently prepared reports which raised
concerns about Monroe’s teaching. Academic Affairs
Vice President Louise Love declined to renew Monroe’s
appointment for the following year. But Monroe filed a
successful grievance challenging that decision
principally on the ground that no tenured faculty
members had observed his classroom performance as
the College’s evaluation procedures specified. Columbia
President Warrick Carter reversed the decision not to

App. 11
renew Monroe’s contract for the 2011-2012 academic
year.
Monroe alleges that following Carter’s reversal,
Sheridan was hostile to Monroe and retaliated against
him by, inter alia, assigning him to teach only
introductory-level classes, assigning a white male with
lesser qualifications to teach graduate-level directing
courses (where Monroe had previously received his best
evaluations), choosing white non-tenure track lecturers
to fill various screenwriting and administrative
program coordinator provisions, and engaging in
“hyper-surveillance” of Monroe and threatening him
with investigations (that never materialized) of even
minor infractions.
When Monroe’s tenure evaluation began in 2012,
the reviewing department faculty approved his tenure
application by a vote of 9-5. Although their report cited
continuing concerns that Monroe did not provide timely
feedback to students and respond to student
communications, it indicated that his teaching and
teaching-related performance had improved
substantially. Sheridan, who did not participate in that
review, wrote a separate, eight-page memorandum as
Monroe’s department chair acknowledging
improvements in Monroe’s performance while
indicating that substantial concerns remained
regarding his reliability and punctuality, the discharge
of his duties as to student advising, and the
thoroughness of his teaching methodology. Sheridan
also excerpted a negative student evaluation from a
course where the comments otherwise were
overwhelmingly positive. Sheridan opined that

App. 12
Monroe’s performance in teaching and teaching-related
activity did not meet the requirements for tenure.
The All College Tenure Committee voted
unanimously to deny Monroe tenure, noting that his
“efforts have consistently fallen short of both the
department’s and the college’s standards” and that
“two of his three reviewers did not endorse his tenure
bid.” Vice President (and interim Provost) Love advised
Monroe in March 2013 that she had decided not to
grant him tenure.
Monroe appealed the denial of tenure to Columbia’s
incoming President, Kwang-Wu Kim. On August 12,
2013, Kim rejected the appeal and affirmed Love’s
decision as Provost to deny him tenure. Monroe
concluded his terminal year of employment in May
2014.
In September 2013, about one month after Kim’s
decision, Monroe filed a discrimination charge with the
Chicago Commission on Human Relations. Monroe
eventually filed a Title VII charge of race
discrimination and retaliation with the Equal
Employment Opportunity Commission (“EEOC”) on
February 7, 2014, but this was more than 300 days
after Love denied his application for tenure. The EEOC
accepted and investigated Monroe’s charge and
eventually issued a right-to-sue letter on May 12, 2017,
without reaching a conclusion as to the merits (or the
timeliness) of his charge.
Monroe filed this suit in August 2017 after the
EEOC issued his right-to-sue letter. Counts I and II of
his amended complaint set forth claims of race

App. 13
discrimination and retaliation in violation of Title VII.
Counts III and IV set forth similar claims of race
discrimination in violation of 42 U.S.C. § 1981 (right to
make and enforce contracts) and Title VI of the Civil
Rights Act of 1964, 42 U.S.C. §2000d (proscribing
discrimination in federally funded programs). Counts
V and VI set forth state-law claims for intentional
interference with contract and tortious interference
with a prospective economic advantage. R. 50.
The district court dismissed Counts I through III as
untimely. At the outset, the court agreed with
Columbia that Provost Love’s tenure decision in March
2013 was the operative, final employment action for
purposes of determining when the 300-day limitations
period for Title VII claims began to run. President
Kim’s August 2013 decision simply amounted to
appellate review of that otherwise final decision.
Because Monroe did not file his EEOC charge until
February 2014, some 326 days after Love’s tenure
decision, Counts I and II were untimely filed. Monroe
v. Columbia Coll. of Chicago, 2018 WL 1726426, at
*2–4 (N.D. Ill. April 10, 2018) (applying Delaware State
Coll. v. Ricks, 449 U.S. 250, 260–61, 101 S. Ct. 498,
505–06 (1980)). See Lever v. Northwestern Univ., 979
F.2d 552, 554–56 (7th Cir. 1992).
Although Monroe argued that
certain
discriminatory conduct against him continued beyond
Love’s tenure decision through May 2014, when his
terminal year of employment at Columbia concluded,
the court reasoned that none of the conduct identified
constituted an adverse employment action with
tangible consequences. Monroe v. Columbia Coll. of

App. 14
Chicago, 2018 WL 4074190, at *3–4 (N.D. Ill. Aug. 27,
2018).
Monroe also alleged that he was subject to a hostile
working environment that continued through his final
year, but the district court was not convinced that the
conduct he identified as harassing rose to the level of a
hostile environment. Id., at *5.
Finally, Monroe contended that Columbia ought to
be equitably estopped from challenging the timeliness
of his complaint, but the court rejected this argument
also. The court noted that equitable estoppel requires
some sort of deliberate, deceptive conduct on the part
of the defendant that caused the untimeliness. Apart
from his own decision to originally file his
discrimination charge in the wrong forum (with which
Columbia had nothing to do), Monroe alleged only that
Columbia had “lulled” him into thinking that it was the
President rather than the Provost who was the final
decisionmaker for limitations purposes. But simply
because Columbia had multiple levels of review,
including appellate review at the President’s level, and
Monroe had succeeded previously in securing a reversal
of the Provost’s decision, was not sufficient to show any
deliberate, wrongful action on Columbia’s part. Id., at
*5–6.
The court went on to find that Monroe’s section
1981 claim (Count III) was likewise untimely. That
claim is subject to a four-year statute of limitations.
Monroe was denied tenure by the Provost in March
2013, but he did not file his federal complaint until
August 2017, more than four years later. Id., at *6.

App. 15
The court subsequently entered summary judgment
in Columbia’s favor as to Counts IV through VI.
Monroe v. Columbia Coll. Chicago, 2020 WL 1503593
(N.D. Ill. Mar. 30, 2020). (The judgment as to Count IV,
asserting the Title VI claim for race-based exclusion
from participation in a federally-funded program, is
addressed in our separate opinion.) Count V is a claim
for intentional interference with contract under Illinois
law. The gist of the claim is that Sheridan, by
submitting factually false reports as to Monroe’s
performance, effectively caused Columbia to breach its
contract with Monroe by denying him tenure
notwithstanding the fact that he met the College’s
criteria for tenured employment and was “entitled” to
tenure. R. 50 at 24. Judge Durkin assumed that the
published tenure criteria constituted a contract, but he
emphasized that Columbia, as opposed to Sheridan,
had done nothing to breach that contract. Id., at *5.
Finally, Count VI asserts a claim for tortious
interference with a prospective economic advantage.
Monroe alleges that Sheridan, by misrepresenting his
performance, effectively doomed his tenure application.
But Judge Durkin noted that the first element of such
a claim is a reasonable expectation of entering into a
business relationship, which in this case would be a
grant of tenure and a renewal of his teaching contract.
Yet Columbia’s tenure criteria make clear that there is
no right to tenure and that tenure is granted only to
the most highly-qualified individuals. Monroe “d[id] not
cite a single case” in which a candidate could say that
he had a reasonable expectation of being granted
tenure. Moreover, from his first year onward, there
were criticisms of Monroe’s performance. So while
Monroe may have hoped that he would be granted

App. 16
tenure, he could not reasonably claim to have expected
it. Id., at *6.
II.
A. Timeliness of Counts I and II: discriminatory acts in
Monroe’s terminal year.
The Title VII claims of race discrimination and
retaliation set forth in Counts I and II of Monroe’s
complaint are subject in practice to a 300-day
limitations period in Illinois, in view of the EEOC’s
work-sharing arrangement with the Illinois
Department of Human Rights. See 42 U.S.C. § 2000e5(e)(1); Mirza v. Neiman Marcus Grp., Inc., 649 F.
Supp. 2d 837, 849–52 (N.D. Ill. 2009). As noted, Monroe
did not file his Title VII charge with the EEOC until
more than 300 days after the Provost’s March 2013
decision to deny him tenure.1
Although the denial of tenure takes center stage in
Monroe’s complaint, he alleges that the College took
other, related adverse employment actions against him
through the end of his terminal year in May 2014 and
contends that because these actions took place within
the limitations period, his complaint is timely. These
include such things as not allowing him to teach
advanced courses, denying him a position as a project
coordinator, preventing him from interacting with
1

Monroe’s prior filing with the Chicago Commission on Human
Relations is of no benefit to him in this respect because the
Commission has no work-sharing relationship with the EEOC. See
29 C.F.R. § 1601.74(a); Crawford v. Bank of Am., 986 F. Supp. 506,
509 (N.D. Ill. 1997); Osborn v. E.J. Brach, Inc., 864 F. Supp 56, 58
n.4 (N.D. Ill. 1994).

App. 17
community groups, denigrating his work to others, and
disallowing his participation in inter-disciplinary
teaching. In Monroe’s view, such acts, taken together,
could be thought to have dimmed his future career
employment prospects and denied him additional
income. See Herrnreiter v. Chicago Hous. Auth., 315
F.3d 742, 744 (7th Cir. 2002).
We agree with the district court that these
additional allegations are insufficient to establish a
distinct, material adverse action that might render
Counts I and II timely. Among the various actions
alleged, the one that would have had the most obvious
potential to affect Monroe’s employment prospects
elsewhere was denying him the opportunity to teach
more advanced courses. But Monroe has alleged in his
amended complaint that he did in fact teach advanced
courses in his terminal year. R. 50 ¶ 50. As for the
remaining actions, Monroe has not made a plausible
case for why these were significant enough to result in
concrete harm to his career prospects and constitute an
adverse employment action on their own.
B. Timeliness of Counts I and II: hostile work
environment.
Monroe alternatively argues that he was subject to
a hostile working environment which continued
through his terminal year. Assuming that there were
underlying acts of harassment that took place in
Monroe’s final year at Columbia, then one or both of his
Title VII claims might be timely to the extent they seek
relief for a hostile environment. See Nat’l R.R.
Passenger Corp. v. Morgan, 536 U.S. 101, 118, 125 S.
Ct. 2061, 2075 (2002). However, the harassment

App. 18
underlying a hostile environment claim must qualify as
severe or pervasive in order to be actionable. Harris v.
Forklift Sys., Inc., 510 U.S. 17, 21–22, 114 S. Ct. 367,
370–71 (1993), abrogated on other grounds, Burlington
Indus., Inc. v. Ellerth, 524 U.S. 742, 118 S. Ct. 2257
(1998). Among the pertinent negative actions briefly
referenced in the complaint (e.g., Sheridan accusing
Monroe of “playing the race card” and engaging in
“hyper-surveillance” of his activities) and flagged in the
briefing, none qualify as severe, and neither do the
allegations plausibly describe a workplace that was
permeated with offensive and demeaning conduct over
a significant period of time. See id. at 21, 114 S. Ct. at
370; Cerros v. Steel Techs., Inc., 288 F.3d 1040, 1047
(7th Cir. 2002).
C. Timeliness of Counts I, II, III, and VI: equitable
estoppel.
Monroe also asserts that equitable estoppel ought to
preclude Columbia from arguing that his Title VII,
section 1981, and his Title VI claims are untimely. He
makes two points in this regard. First, citing a Third
Circuit case, Oshiver v. Levin, Fishbein, Sedran &
Berman, 38 F.3d 1380, 1390 (3d Cir. 1994), overruled in
part on other grounds by Rotkiske v. Klemm, 890 F.3d
422, 428 (3d Cir. 2018) (en banc), j. aff’d, 140 S. Ct. 355
(2019), Monroe argues that mistakenly filing a
complaint in the wrong forum can be a basis for
equitable relief. Oshiver’s conception of when equitable
relief is appropriate is broader than the one this court
has adopted, see Thelen v. Marc’s Big Boy Corp., 64
F.3d 264, 267–68 (7th Cir. 1995), but Monroe appears
to rely on Oshiver’s discussion of a plaintiff’s diligence,

App. 19
and the importance of that diligence in awarding
equitable relief, for the notion that his own timely
pursuit of relief, albeit initially in the wrong forum (the
Chicago Commission on Human Relations), paves the
way for him to invoke the doctrine of equitable estoppel
and to argue that Columbia’s wrongdoing should
support the application of that doctrine and excuse the
tardy filing of his EEOC charge. Reply Br. at 6–7.
Monroe thus goes on to argue that Columbia made
statements to the EEOC indicating, contrary to its
argument now, that the Provost’s March 2013 tenure
decision was merely a recommendation, and that it was
President Kim who made the final tenure decision in
August 2013. See R. 55-1 at 6, 8. These statements
purportedly misled Monroe into believing that the
statute of limitations on his discrimination claims did
not begin to run until August 2013, when Kim affirmed
the Provost’s decision. Compare Williamson v. Indiana
Univ., 345 F.3d 459, 463 (7th Cir. 2003) (rejecting
plaintiff’s invocation of equitable estoppel in the
absence of evidence that either EEOC or defendant
took active steps to prevent plaintiff from timely filing
claim), with Cada v. Baxter Healthcare Corp., 920 F.2d
446, 450–51 (7th Cir. 1990) (indicating equitable
estoppel would be appropriate when defendant has
promised not to plead statute of limitations).
Monroe’s equitable estoppel theory goes nowhere.
First, with respect to the Title VII claims set forth in
Counts I and II, Columbia made these statements to
the EEOC in April 2014, after Monroe had already filed
his EEOC charge late, so these statements cannot be
said to have “prevented” Monroe from timely pursuing

App. 20
his EEOC charge. Equitable estoppel thus cannot
rescue Counts I and II.
Second, as to Counts III (section 1981) and IV (Title
VI) Monroe contends that had he realized it was the
Provost’s decision that started the limitations clock, he
would have more timely filed his federal complaint;
instead, Columbia’s statements to the EEOC led him to
believe the clock did not begin to run until August
2013. He adds that neither Columbia nor the EEOC
raised any questions as to the timeliness of his claims
during the years his charge was pending with the
agency. But, as Judge Durkin emphasized, equitable
estoppel requires a deliberate strategy on the part of
the defendant. We see nothing in the record that
supports an inference that Columbia was deliberately
trying to deceive or lull Monroe on this point so that he
would fail to timely pursue legal relief on his claims, or
even that the College clearly understood that its
actions would cause Monroe to delay taking action in
pursuit of his claims. See Hedrich v. Bd. of Regents of
Univ. of Wis. Sys., 274 F.3d 1174, 1182 (7th Cir. 2001).
It is not unusual for lawyers to overlook points or to
advance new arguments as a case proceeds, after all.
D. Count V: intentional interference with contract.
Monroe’s state-law claim for interference with
contract against Sheridan posits that Sheridan caused
Columbia to breach its contractual agreement to base
its tenure decision on its published criteria for tenure
when it relied on Sheridan’s evaluations of his
performance rather than those criteria, without
recognizing that Sheridan had placed limitations on
Monroe’s ability to meet these criteria and had

App. 21
misrepresented Monroe’s performance as a teacher.
But, as the district court reasoned, there is no evidence
that Columbia abandoned its stated criteria for tenure.
Rather, it was influenced by Sheridan’s reports (as one
might expect, given his position as Monroe’s
department chairperson) in applying those criteria.
Whatever wrongdoing Monroe attributes to Sheridan,
the result was not a breach of contract by Columbia.
E. Count VI: tortious interference with prospective
economic advantage.
Count VI alleges that Sheridan, by submitting his
unfounded negative evaluation of Monroe, tortiously
interfered with Monroe’s tenure application (and, in
turn, his future employment prospects). This claim
arguably is a better fit for what Monroe is alleging, i.e.,
that Monroe was qualified and expected to be given
tenure but Sheridan deliberately interfered with the
process and sank his tenure application. But this claim,
as the district court noted, requires as its first element
a reasonable expectation of entering into a business
relationship. Foster v. Principal Life Ins. Co., 806 F.3d
967, 971 (7th Cir. 2015) (quoting Voyles v. Sandia
Mortg. Co., 751 N.E.2d 1126, 1133 (Ill. 2001)). Tenure
is a highly discretionary decision and is frequently
denied to any number of competent candidates whom
a university deems not to meet its criteria. Nothing in
Columbia’s published tenure criteria or in its dealings
with Monroe promised or guaranteed him tenure,
whatever his unilateral hopes may have been.
Moreover, although he received the favorable (albeit
divided) vote of the faculty members in his department,
and there appears to have been a consensus that his

App. 22
teaching and teaching-related performance had
substantially improved over the course of his time at
Columbia, there were certain persistent criticisms of
Monroe in that respect throughout his time there. So it
is just not plausible to say that he had a reasonable
expectation of being granted tenure. See Goswami v.
DePaul Univ., 2014 WL 125600, at *5–7 (N.D. Ill. Jan.
14, 2014) (Illinois law) (noting, inter alia, that glowing
reviews did not give rise to a reasonable expectation of
tenure and contract renewal); Montes v. Cicero Pub.
Sch. Dist. No. 99, 141 F. Supp. 3d 885, 900–01 (N.D. Ill.
2015) (Illinois law) (non-renewal of year-to-year
teaching contract). This claim fails also.
III.
For all of the foregoing reasons, we AFFIRM the
district court’s judgment as to Counts I through III and
V and VI of Monroe’s amended complaint.

App. 23

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 17-cv-5837
Judge Thomas M. Durkin
[Filed: August 27, 2018]
__________________________________________
VAUN MONROE,
)
)
Plaintiff,
)
)
v.
)
)
COLUMBIA COLLEGE OF CHICAGO &
)
BRUCE SHERIDAN,
)
)
Defendants.
)
__________________________________________)
MEMORANDUM OPINION AND ORDER
Plaintiff Vaun Monroe brought this action against
Defendants Columbia College of Chicago and Bruce
Sheridan asserting claims of race discrimination and
retaliation in violation of Title VII (Counts I and II), 42
U.S.C. § 1981 (Count III), and Title VI (Count IV); as
well as intentional interference with contract and
prospective economic advantage (Counts V and VI).
The Court previously granted a motion to dismiss by

App. 24
Defendants, holding that Counts I through III were
time-barred. R. 43. Monroe subsequently filed an
amended complaint. R. 50. Defendants have moved to
dismiss Counts I through III of the Amended
Complaint, arguing Monroe still has not pleaded that
his claims were timely filed. R. 52. For the following
reasons, Defendants’ motion is granted.
LEGAL STANDARD
A Rule 12(b)(6) motion challenges the “sufficiency of
the complaint.” Berger v. Nat. Collegiate Athletic
Assoc., 843 F.3d 285, 289 (7th Cir. 2016). A complaint
must provide “a short and plain statement of the claim
showing that the pleader is entitled to relief,” Fed. R.
Civ. P. 8(a)(2), sufficient to provide defendant with “fair
notice” of the claim and the basis for it. Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555 (2007). This standard
“demands more than an unadorned, the-defendantunlawfully-harmed-me accusation.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). While “detailed factual
allegations” are not required, “labels and conclusions,
and a formulaic recitation of the elements of a cause of
action will not do.” Twombly, 550 U.S. at 555. The
complaint must “contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Iqbal, 556 U.S. at 678 (quoting
Twombly, 550 U.S. at 570). “‘A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.’” Boucher v. Fin. Sys. of Green Bay, Inc., 880
F.3d 362, 366 (7th Cir. 2018) (quoting Iqbal, 556 U.S.
at 678). In applying this standard, the Court accepts all

App. 25
well-pleaded facts as true and draws all reasonable
inferences in favor of the non-moving party. Tobey v.
Chibucos, 890 F.3d 634, 646 (7th Cir. 2018).
BACKGROUND
Monroe was formerly a tenure-track assistant
professor at Columbia in the Film and Video
Department. He alleges that he was the first and only
black male hired as a tenure-track professor in that
department. R. 50 ¶ 2. Monroe alleges a history of
discrimination beginning from his first year at
Columbia. He notes that his concerns about bias in his
students’ evaluations were ignored, and he was passed
up for promotions over white, less qualified individuals.
In late 2010, Sheridan, Monroe’s department chair,
recommended Monroe’s termination. Id. ¶ 40. Monroe
filed a grievance with the Elected Representatives of
the College (“ERC”) and Sheridan’s recommendation
was eventually reversed by Columbia’s then president,
President Carter. Id. ¶¶ 44-49. In reversing the
proposed dismissal, President Carter wrote: “My
decision regarding your faculty status at Columbia
College Chicago is that your tenure-track appointment
be continued for the 2011-2012 academic year.” Id.
¶ 49. The grievance allegedly resulted in retaliation by
Sheridan—Sheridan removed Monroe from teaching
advanced and specialty courses to teaching only
foundational courses. Id. ¶ 50. Monroe resumed
teaching advanced courses at least in his final year of
employment with Columbia. Id.
Sheridan also “engaged in hyper-surveillance” of
Monroe’s activities and threatened Monroe with

App. 26
“investigations” of minor infractions that never actually
materialized. Id. ¶ 51. Monroe alleges this behavior
continued until the end of his employment. Id. ¶¶ 50,
51.
Eventually, when Monroe was considered for
tenure, his department “voted overwhelmingly in favor
of Monroe’s tenure,” but Sheridan issued a negative
recommendation. Id. ¶ 53. On March 18, 2013, the
Provost denied Monroe tenure because he “did not
show strong evidence of excellence in teaching or
professional distinction in creative endeavors or
scholarship.” Id. ¶ 54. Monroe filed a grievance with
the ERC and also filed a complaint of racial
discrimination, harassment, and retaliation against
Sheridan with Columbia’s Office of Human Resources.
Id. ¶ 55-56. Both complaints were rejected. Id. Monroe
then submitted materials for review of the decision to
Columbia’s incoming president, President Kim.
President Kim ruled against Monroe on August 12,
2013. Id. ¶ 59. Monroe alleges that based on his
previous experiences with Columbia, it is the
president’s decision to retain or dismiss a professor,
and as a result, Monroe believed President Kim made
the final decision on tenure, and that earlier decisions
by the Provost were merely recommendations. Id. ¶ 60.
Monroe contested President Kim’s decision. He first
wrote to the American Association of University
Professors. Id. ¶ 61. The Association wrote to President
Kim, stating that the decision to deny Monroe tenure
after he had made a claim for discrimination was
grounds for a new hearing and that Columbia was in
violation of best academic practices. Id. President Kim

App. 27
responded that Columbia would treat the statement as
a “suggestion” and would consider it for future cases.
Id. On September 12, 2013, about one month after
President Kim’s decision to deny Monroe tenure,
Monroe filed a complaint of discrimination with the
City of Chicago Commission on Human Relations,
alleging racial discrimination and workplace
retaliation. Id. ¶ 62. Monroe next filed a Charge of
Discrimination with the Equal Employment
Opportunity Commission (“EEOC”) on February 7,
2014. See R. 50-1. The EEOC issued an inconclusive
determination on May 12, 2017. Id. The EEOC did not
indicate the Charge was untimely filed. Id. Monroe
filed this action on August 10, 2017.
DISCUSSION
On April 10, 2018, the Court dismissed Counts I
through III of Monroe’s complaint as time-barred. R.
43. The Court assumes general familiarity with that
decision. In that opinion, the Court held that the
Provost’s decision on March 18, 2013 denying Monroe
tenure, not President Kim’s decision, was the operative
adverse action for determining the statute of
limitations period. The Court based that ruling on
Seventh Circuit precedent, Columbia’s policies on
tenure, and the letters referenced in the complaint in
which President Kim stated his decision was solely
appellate. R. 43 at 5-9. Because the Court determined
the operative adverse action date was March 18, 2013,
Monroe’s February 7, 2014 complaint with the EEOC
was filed 26 days beyond the 300-day limitations period
under 42 U.S.C. § 2000e–5(e)(1). The Court also found
that Monroe had not plausibly alleged that

App. 28
discrimination against him continued through the end
of his employment in May 2014 after he had filed his
EEOC complaint, and Monroe had not demonstrated
that equitable principles should toll the limitations
period. For similar reasons, the Court found Monroe
had failed to timely bring his 42 U.S.C. § 1981 claim,
which has a four-year statute of limitations period.
Monroe now argues his Title VII and Section 1981
claims are timely because the discrimination against
him continued through the termination of his
employment and because Defendants should be
equitably estopped from arguing the statute of
limitations applies.
I. Title VII Claim (Counts I and II)
A. Adverse Employment Action
Monroe first argues that the amended complaint
sufficiently alleges that he suffered specific acts of
discrimination through the date of his termination in
May 2014. To be actionable, a discriminatory act must
constitute an “adverse employment action.” Stalter v.
Wal–Mart Stores, Inc., 195 F.3d 285, 289 (7th Cir.
1999). An adverse employment action is one that
results in a “significant change in employment status.”
Chaudhry v. Nucor Steel-Ind., 546 F.3d 832, 838 (7th
Cir. 2008). “[N]ot everything that makes an employee
unhappy is an actionable adverse action. Otherwise,
minor and even trivial employment actions that ‘an
irritable, chip-on-the-shoulder employee did not like
would form the basis of a discrimination suit.’” Smart
v. Ball State Univ., 89 F.3d 437, 441 (7th Cir. 1996).
Adverse employment actions typically fall into one of

App. 29
three categories: “(1) termination or reduction in
compensation, fringe benefits, or other financial terms
of employment; (2) transfers or changes in job duties
that cause an employee’s skills to atrophy and reduce
future career prospects; and (3) unbearable changes in
job conditions, such as a hostile work environment or
conditions amounting to constructive discharge.”
Barton v. Zimmer, Inc., 662 F.3d 448, 454-454 (7th Cir.
2011).
Here, Monroe alleges he was subjected to different
terms and conditions of employment because of his race
and in retaliation for his complaints against Sheridan.
He argues that this conduct falls into the second
category of adverse employment actions—changes in
job duties that cause an employee’s skills to atrophy or
reduce future career prospects. R. 55 at 5. Most of
Monroe’s allegations occurred well outside the 300-day
limitations period required to bring his Title VII claim
and thus cannot be included as timely discrete acts. See
R. 50 ¶¶ 50, 51.
Monroe makes conclusory allegations that some of
the conduct continued through the end of his
employment—his amended allegations extend the
relevant dates of the conduct through May 2014 (“posttenure decision conduct”). Specifically, he alleges that
he was forced to teach only introductory classes,
“including during his ‘terminal year’ at Columbia in the
fall 2013 and continuing in the Spring semester
through May 2014.” Id. ¶ 50. Monroe further alleges
that Sheridan’s “hyper-surveillance” of Monroe’s
activities continued through May 2014. Id. ¶ 51.
Neither of these allegations plausibly allege an adverse

App. 30
employment action. With respect to both allegations,
Monroe’s own complaint shows they had no effect on
his tenure decision. As to his teaching introductory
courses, Monroe alleges that in his “terminal year” he
taught two advanced courses, but these courses were
too late to benefit his tenure application. Id. ¶ 50.
Likewise, he alleges the hyper-surveillance was
reduced during his terminal year and that Sheridan’s
threats of investigations never actually materialized.
Id. ¶ 51. Nor does Monroe allege that his skills
atrophied or that his future career prospects were
reduced because of that later conduct. Lucas v. Chi.
Transit Auth., 367 F.3d 714, 731 (7th Cir. 2004) (“There
must be some tangible job consequence accompanying
the reprimand to rise to the level of a material adverse
employment action.”).
In any event, the conduct he complains of does not
constitute adverse employment actions. Monroe argues
the changes in his job duties (restriction to teaching
introductory classes, failing to allow peer reviews of his
classes, denying interactions with community groups,
denigrating his work to others) is sufficient to meet the
adverse employment action standard. But courts have
held that similar conduct is not actionable, particularly
without allegations that the change had any job
consequences. See Peters v. Wal-Mart, 876 F. Supp. 2d
1025, 1035 (N.D. Ind. 2012), aff’d sub nom. Peters v.
Wal-Mart Stores E., LP, 512 F. App’x 622 (7th Cir.
2013) (allegations that defendants would not allow
plaintiff to modify her schedule, reprimanded her
rudely, failed to train her on certain equipment,
required her to take a drug test, kept plaintiff under
“close surveillance,” gave her a written coaching, and

App. 31
gave her difficult work assignments were insufficient
to establish an adverse employment action as a matter
of law); Lapka v. Chertoff, 517 F.3d 974, 986 (7th
Cir.2008) (concluding that more difficult or timeconsuming work assignments and decreased
performance ratings were not materially adverse
employment actions absent tangible job consequences);
compare Alexander v. Casino Queen, 739 F.3d 972, 980
(7th Cir. 2014) (allegations that plaintiffs were moved
from high-tipping areas on the casino floor and
disciplined more harshly than their white peers
causing them to lose hours or days of tips were
sufficient because tips comprised 40% to 73% of the
plaintiffs’ compensation and as a result, the reduction
represented a “significant” change in benefits); Lewis v.
City of Chicago, 496 F.3d 645, 653 (7th Cir. 2007)
(denial of training experience through denial of
overtime could constitute adverse employment action
because plaintiff lost overtime pay and because it
denied her the opportunity to police large public
gatherings to advance her career and receive future
overtime).1 In its previous opinion, the Court explained
that Monroe plausibly alleged an adverse employment
action based on allegations that he was forced to teach
1

Monroe criticizes Defendants for using cases decided on summary
judgment in support of their argument, but Monroe likewise uses
summary judgment decisions in support of his argument. See R. 55
at 6. On a motion to dismiss, the Court accepts all well-pleaded
facts as true and draws all reasonable inferences in favor of the
non-moving party. Tobey v. Chibucos, 890 F.3d 634, 646 (7th Cir.
2018). The courts in the cases on which both parties and the Court
rely, found that the plaintiffs could not show an adverse
employment action as a matter of law and therefore are properly
considered on a motion to dismiss.

App. 32
classes outside his specialty, which plausibly could
have constituted a reduction in benefits, a reduction in
future career prospects, or created an unbearable
change in job conditions. R. 43 at 14. But in his
Amended Complaint, Monroe pleads himself out of
plausibility by admitting he did teach advanced
courses, and that teaching some introductory courses
in his terminal year did not affect his tenure prospects.
R. 50 ¶ 50. Without allegations that the employment
action had tangible job consequences, Monroe does not
plausibly allege an actionable adverse employment
action.
Here, the only detriment Monroe alleges is the
denial of tenure. But the actions that led to that denial
necessarily occurred before he was denied tenure.
Monroe fails to allege any post-tenure decision conduct
that had an adverse effect on his career prospects.
Accordingly, Monroe fails to plead any discrete adverse
actions within the limitations period.
B. Hostile Work Environment
Monroe’s Title VII claim can survive if he alleges a
hostile work environment with at least one act falling
within the 300-day period. Monroe fails to do so.
Hostile work environment claims involve “repeated
conduct” that “may not be actionable on its own.”
Morgan, 536 U.S. at 115. Rather, “[s]uch claims are
based on the cumulative effect of individual acts.” Id.
In contrast to discrete acts of discrimination, it does
not matter that “some of the component acts of the
hostile work environment fall outside the statutory
time period. Provided that an act contributing to the
claim occurs within the filing period, the entire time

App. 33
period of the hostile environment may be considered by
a court for the purposes of determining liability.” Id. at
117; see also Lucas, 367 F.3d at 724.
A hostile environment is one that is “permeated
with discriminatory intimidation, ridicule and insult.”
Cooper-Schut v. Visteon Auto. Sys., 361 F.3d 421, 426
(7th Cir. 2004). To state a Title VII hostile work
environment claim, Monroe must allege (1) he was
subject to unwelcome harassment; (2) the harassment
was based on his race; (3) the harassment was severe
or pervasive so as to alter the conditions of employment
and create a hostile or abusive working environment;
and (4) there is basis for employer liability. Huri v.
Office of the Chief Judge of the Circuit Court of Cook
Cty., 804 F.3d 826, 833-34 (7th Cir. 2015). “To rise to
the level of a hostile work environment, conduct must
be sufficiently severe or persuasive to alter the
conditions of employment such that it creates an
abusive relationship.” Id. (emphasis in original). In
determining whether a workplace is objectively hostile,
courts consider the totality of the circumstances,
including: “the frequency of the discriminatory conduct;
its severity; whether it is physically threatening or
humiliating, or a mere offensive utterance; and
whether it unreasonably interferes with an employee’s
work performance.” Alamo v. Bliss, 864 F.3d 541, 54950 (7th Cir. 2017)
Monroe’s allegations do not plausibly support an
abusive work environment. Monroe alleges he was
denied the opportunity to teach advanced courses,
serve in coordinator positions, hold administrative
responsibilities, interact with community groups, and

App. 34
to have his teaching assessed by peer reviews. R. 50
¶ 67. Monroe also alleges he was subject to hypersurveillance and threatened with “investigations” of
minor infractions, but that those investigations never
actually materialized. Id. Although these incidents may
have understandably frustrated Monroe, they do not
constitute harassment so severe or pervasive to alter
the conditions of employment and create an abusive
working environment. Compare Huri, 804 F.3d at 834
(allegations of screaming, prayer circles, social
shunning, implicit criticism of non-Christians, and
uniquely bad treatment plausibly alleged a hostile
work environment); Alamo, 864 F.3d at 550-552
(allegations that coworkers used offensive slurs, stole
plaintiff’s food, and physically threatened him over a
two-year period, as well as allegations that he routinely
complained to his supervisors of mistreatment and that
those supervisors did nothing to curb the ongoing
harassment were sufficient to survive motion to
dismiss). Further, Monroe does not allege that the
conduct interfered with his work performance. See
Alexander, 739 F.3d at 982 (work environment that
“was not physically threatening, nor was it openly
racist, nor did it unreasonably interfere with plaintiffs’
performance” was not a hostile work environment).
Instead, Monroe’s allegations indicate his performance
was not affected—he alleges Sheridan selectively
quoted negative student evaluations while ignoring
“overall statistics and peer reviews that were positive,”
R. 50 ¶ 51, and falsely denigrated Monroe to
professional colleagues, id. ¶ 52. Monroe has not
plausibly alleged a hostile work environment that
interfered with his work performance. See Griffin v.
Potter, 356 F.3d 824, 830 (7th Cir. 2004) (noting that a

App. 35
supervisor’s alleged harassing conduct did not interfere
with plaintiff’s ability to do her job and therefore
weighed against a finding of a hostile work
environment).
C. Equitable Estoppel
Monroe next argues that the Court should apply
equitable estoppel to allow his claims to proceed
because he timely asserted his rights, but mistakenly
in the wrong forum. R. 55 at 10. Monroe alleges he filed
a complaint of discrimination with the City of Chicago
Commission on Human Relations alleging racial
discrimination and workplace retaliation within the
300-day limitations period. R. 50 ¶ 62. Monroe concedes
that his filing of that complaint is not sufficient to meet
the limitations period because the Commission is not a
federally certified agency. See R. 55 at 11. Nonetheless,
he contends that Columbia is equitably estopped from
arguing that his subsequent filing with the EEOC was
filed too late.
Simply mistaking the proper forum is not sufficient
to warrant equitable estoppel. As a case Monroe cites
makes clear, extending the statute of limitations is
appropriate where the defendant “by deceptive conduct,
caused the plaintiff’s untimeliness.” Oshiver v. Levin,
Fishbein, Sedran & Berman, 38 F.3d 1380, 1390 (3d
Cir. 1994).2 Indeed, equitable estoppel requires

2

The other case Monroe cites for his argument is not on point. See
Burnett v. New York Cent. R. Co., 380 U.S. 424, 429-34 (1965)
(respondent could not rely on limitations statute because it knew
that the petitioner was actively pursuing his rights in the state
court and becuase to not toll the statute would create a “procedural

App. 36
allegations that Columbia “took active steps to prevent
[Monroe] from bringing [his] charge within the allotted
time.” See Williamson v. Indiana Univ., 345 F.3d 459,
463 (7th Cir. 2003); Hentosh v. Herman M. Finch Univ.
of Health Scis./The Chicago Med. Sch., 167 F.3d 1170,
1174 (7th Cir. 1999). Monroe makes no allegations that
Columbia took active steps to cause him to bring the
case before the Commission on Human Rights rather
than the EEOC.3
Monroe instead argues Columbia lulled him into
believing that the president was the final decisionmaker as to tenure. As the Court explained in its first
opinion, allegations of equitable estoppel require “a
deliberate design by the employer or . . . actions that
the employer should unmistakably have understood
would cause the employee to delay filing his charge.”
Hedrich v. Bd. of Regents of Univ. of Wisconsin Sys.,
274 F.3d 1174, 1182 (7th Cir. 2001). Monroe makes no
such allegations. Instead, the “lulling” Monroe alleges
occurred years before the tenure decision: Monroe
anomaly” regarding improper venue not intended by the Federal
Employers’ Liability Act).
3

To the extent Monroe argues equitable tolling is more
appropriate, that argument fails because there are no allegations
Monroe “discovered” his injury at a later date. See Cada v. Baxter
Healthcare Corp., 920 F.2d 446, 451 (7th Cir. 1990) (Equitable
tolling “permits a plaintiff to avoid the bar of the statute of
limitations if despite all due diligence he is unable to obtain vital
information bearing on the existence of his claim.”). Here, Monroe
was aware of the discrimination claim at the time of the Provost’s
tenure denial. He alleges he filed a complaint of racial
discrimination with the Office of Human Resources soon after he
was denied tenure. R. 50 ¶ 56.

App. 37
alleges President Carter reversed a recommendation to
terminate his employment for the 2011-2012 academic
year. R. 50 ¶ 49. If Monroe is arguing that this decision
caused him to believe President Kim’s denial was the
final decision, this at most indicates confusion by
Monroe as to Columbia’s procedures on tenure—not a
“deliberate design” by Columbia to delay Monroe filing
his Charge of Discrimination three years later.
Regardless, President Kim’s letter to Monroe in August
2013 clarified those procedures. See R. 43 at 7 (noting
that President Kim’s letter on August 12, 2013 stated:
“my office received your written appeal in regards to
the denial of tenure in your case,” and after describing
the procedures Monroe had already attempted, stating
“[k]nowing the importance of the tenure decision for a
faculty member, I have studied your entire case and
appeal thoroughly and have considered at length each
of the ERC’s three findings. In the end, . . . I therefore
affirm that denial of tenure in your case will stand.”)
(emphasis added in original opinion).4
Further, Seventh Circuit case law forecloses any
argument by Monroe that having many channels of
internal review constitutes active steps by an employer
warranting equitable estoppel. See Lever v.
Northwestern University, 979 F.2d 552, 556 (7th Cir.
1992) (an internal review process was not a “snare[ ]
for the unwary” simply because the defendant
university offered many channels of internal review
through which a professor could attempt to persuade
4

Monroe attached President Kim’s letter to his response to
Defendants’ initial motion to dismiss. See R. 21-5. The Court relied
on that letter in its opinion.

App. 38
school officials to change their employment decisions);
see also Lucas, 367 F.3d at 722 (“Our decisions clearly
demonstrate that merely providing internal review, as
in the present situation, is not the type of active step
that warrants the application of equitable estoppel.”).
In sum, Monroe fails to allege any deliberate action
by Columbia warranting equitable estoppel. As
explained in the Court’s previous order, it is clear from
Columbia’s policies and the letter President Kim sent
to Monroe that his decision on tenure was merely one
of appellate review. R. 43 at 7-8. Monroe does not
plausibly allege that he was deceived into his untimely
filing. Monroe’s Title VII claims are therefore
dismissed with prejudice.5
II. 42 U.S.C. § 1981 (Count III)
For the same reasons as explained above and in the
Court’s previous order (R. 43 at 17-18), Monroe’s
Section 1981 claim is also untimely. Lawsuits alleging
violations of Section 1981 must be filed within four
years of the alleged violation. See 28 U.S.C. §1658(a).
Monroe was denied tenure on March 18, 2013. He filed
this action on August 10, 2017. His claim is thus barred
by the four-year statute. Monroe’s Section 1981 claim
is dismissed with prejudice.

5

Despite an opportunity to amend his claim, Monroe has failed to
plead a plausible claim for relief. A court need not grant leave to
amend if it is clear that amendment is futile. See Runnion v. Girl
Scouts of Greater Chicago & Nw. Ind., 768 F.3d 510, 520 (7th Cir.
2015).

App. 39
CONCLUSION
For the foregoing reasons, Defendants’ motion to
dismiss Counts I through III, R. 52, is granted.
Dated: August 27, 2018
ENTERED:
/s/ Thomas M Durkin
Honorable Thomas M. Durkin
United States District Judge

App. 40

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 17 C 5837
Judge Thomas M. Durkin
[Filed: March 30, 2020]
__________________________________________
VAUN MONROE,
)
)
Plaintiff,
)
)
v.
)
)
COLUMBIA COLLEGE CHICAGO and
)
BRUCE SHERIDAN,
)
)
Defendants.
)
__________________________________________)
MEMORANDUM OPINION AND ORDER
Plaintiff Vaun Monroe brought this action against
Defendants Columbia College Chicago and Bruce
Sheridan asserting claims of race discrimination and
retaliation in violation of Title VII (Counts I and II), 42
U.S.C. § 1981 (Count III), and Title VI (Count IV); as
well as intentional interference with contract and
prospective economic advantage (Counts V and VI).
The Court previously dismissed Counts I-III as time-

App. 41
barred. See R. 62. Now before the Court is Defendants’
motion for summary judgment on Counts IV-VI [R. 73].
Defendants’ motion is granted.
Legal Standard
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a); see also Celotex
Corp. v. Catrett, 477 U.S. 317, 322-23 (1986). The Court
considers the entire evidentiary record and must view
all of the evidence and draw all reasonable inferences
from that evidence in the light most favorable to the
nonmovant. Horton v. Pobjecky, 883 F.3d 941, 948 (7th
Cir. 2018). To defeat summary judgment, a nonmovant
must produce more than a “mere scintilla of evidence”
and come forward with “specific facts showing that
there is a genuine issue for trial.” Johnson v. Advocate
Health and Hosps. Corp., 892 F.3d 887, 894, 896 (7th
Cir. 2018). Ultimately, summary judgment is
warranted only if a reasonable jury could not return a
verdict for the nonmovant. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986).
Background
Plaintiff Vaun Monroe began working at Columbia
College Chicago in the fall of 2007. R. 75 ¶ 3. He was
the first African-American male hired as a tenure-track
professor in Columbia’s Film & Video Department. R.
92 ¶ 2.

App. 42
Columbia’s tenure process involves several steps.1
First, external reviewers review the candidate’s
curriculum vitae and his other scholarly and creative
endeavors. They submit their evaluations to the
candidate’s Department Chair, who reviews the
candidate’s tenure dossier and prepares a Department
Chair Report. Other department faculty independently
review the dossier and prepare a Reviewing Faculty
Report. The candidate’s dossier and the Department
Chair and Reviewing Faculty Reports are sent to the
School Dean, who in turn writes a School Dean Report.
At that point, the candidate may submit comments to
the All College Tenure Committee, which generates yet
another report and delivers it to Columbia’s
Provost/Vice President for Academic Affairs. The
Provost/Vice President then makes the final tenure
decision. See R. 75 Ex. B at 15-18.
Monroe received several negative student course
evaluations during his first year at Columbia. Monroe
met with Department Chair Bruce Sheridan to discuss
the evaluations and pointed out that student

1

Monroe “denies” that Columbia’s Statement of Policy on
Academic Freedom, Faculty Status, Tenure, and Due Process
attached to the Defendants’ summary judgment motion governs
his tenure process because the handbook was amended on May 9,
2013, which was subsequent to his review. But the handbook also
states it was amended in 2002, 2003, 2009, 2011, and 2012. And
Monroe does not point to a single provision that was amended in
2013. Tellingly, in opposing the Defendants’ motion to dismiss,
Monroe cited the same handbook as containing the dispositive
language. See R. 21 at 7. In the absence of any evidence that the
handbook was amended in 2013 in a way that materially affects
this dispute, the Court refers to it as governing here.

App. 43
evaluations may result in bias against faculty of color.
Monroe claims that Sheridan then accused him of
“playing the race card” and not “assuming
responsibility for [his] classroom.” R. 92 ¶ 9. During
Monroe’s second year, a student created a raciallycharged website about him, which Monroe contends
department personnel told him to ignore. R. 87 Ex. E
¶ 14.
By Monroe’s third year, Columbia instituted a thirdyear review for tenure-track faculty. Id. ¶ 17. The
review was intended to provide the faculty member
with an assessment of his performance, but also to
result in a recommendation of “continuation” or
“termination” based on the results. R. 50 ¶ 33.
Sheridan attended Monroe’s faculty review despite
conversations about whether a department chair’s
presence at the meeting was appropriate. R. 92 ¶ 15.
During the meeting, Sheridan again raised the issue of
student evaluations and Monroe repeated his concern
about potential bias. Id. at ¶ 16. The faculty members
then voted on the three areas measured for tenure:
Teaching and Curriculum Development; Creative or
Scholarly Work; and College and Community Service.
Monroe received zero yes votes in Teaching and
Curriculum Development. R. 87 ¶ 15. He received 16
yes votes and one no vote in Creative or Scholarly
Work, and 9 yes votes and 8 no votes in College and
Community Service. R. 75 Ex. D at 6. Sheridan and
School of Media Arts Dean Doreen Bartoni
subsequently prepared the Department Chair and
School Dean Reports, both of which raised concerns
about Monroe’s teaching and teaching-related
activities. See id. Ex. E at 2-3; Ex. F. After reviewing

App. 44
Monroe’s three-year tenure dossier and the Reviewing
Faculty, Department Chair, and School Dean Reports,
Vice President for Academic Affairs Louise Love
declined to renew Monroe’s appointment for the
following year. Id. Ex. G at 1.
When Monroe learned of Love’s decision, he filed a
grievance with Columbia’s Elected Representative
Committee. R. 87 Ex. E ¶ 23. The Committee
determined that the Film & Video Department did not
follow its stated procedures for evaluating Monroe’s
teaching, specifically noting the prejudicial effect of not
having tenured faculty perform classroom observations.
R. 92 ¶ 19. Columbia President Warrick Carter
subsequently reversed the decision not to renew
Monroe’s contract for 2011-2012. R. 87 Ex. J.
Following Carter’s reversal, Monroe met with
Sheridan to clear the air. During the meeting, Sheridan
accused Monroe of tardy submissions of administrative
materials. R. 92 ¶ 20(a). Thereafter, Sheridan only
assigned Monroe to teach introductory courses for the
rest of his employment at Columbia. Id. ¶ 22; R. 87 Ex.
E at 16. While Monroe had received his best
evaluations in graduate-level directing courses, a white
male with a bachelor’s degree in marketing was hired
as an adjunct professor in 2011 and taught Directing 1
every semester through the fall of 2014. R. 92 ¶ 22.
Meanwhile, Sheridan chose white non-tenure track
senior lecturers over Monroe to fill several
screenwriting and program coordinator positions. Id.
¶ 12. Monroe contends that all of his white peers held
coordinator positions in the department. Id. ¶ 11.

App. 45
Monroe’s official review for tenure appointment
began in 2012. The reviewing department faculty met
without Sheridan present and approved Monroe’s
tenure application by a vote of 9-5. Id. ¶¶ 23-24. While
their report cited continuing evidence of Monroe failing
to provide timely feedback to students and respond to
student communication, it stated that Monroe had
“significantly improved in the area of teaching and
teaching-related activities.” R. 75 Ex. I at 3.
Meanwhile, Sheridan wrote an eight-page
Department Chair Report (which Monroe contends is
far longer than is customary), in which he noted
improvements in Monroe’s course evaluations. R. 75
Ex. J at 1. Nevertheless, Sheridan stated that “there
remain significant concerns related to reliability,
punctuality, and the discharge of contracted full-time
duties such as student advising, and thoroughness in
teaching methodology.” Id. at 8. The Report cited
examples of Monroe failing to appear for student
meetings, providing late student feedback, and
neglecting other administrative responsibilities. See id.
4-5. The Report also included an excerpt from a
negative student evaluation in a course in which the
comments were overwhelmingly positive. R. 92 ¶ 28.
Ultimately, Sheridan concluded that Monroe’s
performance in the area of “Teaching and TeachingRelated Activity” fell below the standard required for
tenure. R. 75 Ex. J at 8.
The All College Tenure Committee voted
unanimously to deny Monroe tenure. Id. Ex. K at 1.
The Committee noted that Monroe’s “efforts have
consistently fallen short of both the department’s and

App. 46
the college’s standards” and that “two of his three
reviewers did not endorse his tenure bid.” Id. In a
March 18, 2013 letter, Vice President Love informed
Monroe that “after reviewing your tenure dossier and
recommendations of three external reviewers, the
tenured members of the Film & Video Department,
Chair Bruce Sheridan, Dean Robin Bargar, and the AllCollege Tenure Committee, I have decided that
Columbia College Chicago will not grant you tenure.”
Id. Ex. L. The language in Love’s letter closely followed
the language in Sheridan’s report. R. 92 ¶ 39.
Monroe contends that Sheridan’s Department Chair
Report contained numerous misrepresentations. R. 87
Ex. E ¶¶ 36-43. Monroe also claims that missing
student-advising sessions and submitting forms late
were common occurrences in the department. R. 92
¶¶ 34-35. Monroe further contends that Sheridan
denied him the opportunity to teach interdisciplinary
courses that would have helped his tenure application.
Id. ¶ 37. Monroe points to affidavits from a former
African-American tenure-track professor in the
department and a former African-American student as
evidence of an ongoing pattern of discrimination
involving Sheridan. See R. 87 Exs. O, P.
Defendants now move for summary judgment on
Monroe’s claims under Title VI (Count IV) and for
intentional interference with contract (Count V) and
prospective economic advantage (Count VI).2

2

The Court previously dismissed Counts I-III as time-barred. See
R. 62.

App. 47
Analysis
I.

Title VI (Count IV)

Title VI provides that “[n]o person in the United
States, shall, on the ground of race, color, or national
origin, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under any
program or activity receiving Federal financial
assistance.” 42 U.S.C. § 2000d.
The parties disagree whether a five-year or two-year
statute of limitations applies to claims under Title VI.
Monroe’s employment with Columbia ended in May
2014. He filed this lawsuit in August 2017. Accordingly,
even assuming Monroe could state a cognizable Title VI
claim through the last day of his employment, his claim
is barred if the statute of limitations is two years. If it’s
five years, it is not.
Title VI does not contain a statute of limitations.
Instead, Monroe relies on Beard v. Robinson, 563 F.2d
331 (7th Cir. 1977), which held that “the Illinois fiveyear statute of limitations applies to statutory claims
brought under the Civil Rights Acts.” 563 F.2d at 338.
Following Beard, the Supreme Court held that the
applicable statute of limitations for section 1981 and
section 1983 claims is the state period for personal
injury torts. See Wilson v. Garcia, 471 U.S. 261, 280
(1985) (§ 1983); Goodman v. Lukens Steel Co., 482 U.S.
656, 660-62 (1987) (§ 1981). In Illinois, the personal-

App. 48
injury statute of limitations is two years.3 735 ILCS
5/13-202.
However, so far as the Court can tell, the Seventh
Circuit has not directly decided a statute of limitations
question in the context of Title VI. See Allen v. Bd. of
Governors of State Colleges and Universities, 78 F.3d
586, 1996 WL 102678 (7th Cir. 1996) (unpublished)
(“The parties have contested the district court’s
application of Illinois’ five-year statute of limitations on
the Title VI claim. However, we need not decide this
issue, since we hold on the merits that summary
judgment for defendants was proper.”) (internal
citations omitted). Since Garcia, some district courts in
this circuit have held that a five-year statute of
limitations continues to govern claims under Title VI.
See, e.g., Lewis v. Russe, 713 F. Supp. 1227, 1232 (N.D.
Ill. 1989); Allen v. Bd. of Governors of State Colleges
and Universities, 1993 WL 69674, at *2 (N.D. Ill. Mar.
11, 1993); Brewer v. Bd. of Trustees of the Univ. of
Illinois, 407 F. Supp. 2d 946, 961 (C.D. Ill. 2005), aff’d,
479 F.3d 908 (7th Cir. 2007). More recent cases have
concluded that the personal-injury statute of
limitations applies. See, e.g., Davis v. City of

3

In 1990, Congress adopted a four-year statute of limitations for
federal claims. 28 U.S.C. § 1658. However, “the Supreme Court has
interpreted § 1658 to apply only ‘if the plaintiff’s claim against the
defendant was made possible by a post-1990 enactment,’ and to
leave ‘in place the ‘borrowed’ limitations periods for pre-existing
causes of action.’” Campbell v. Forest Preserve Dist. of Cook Cty.,
Ill., 752 F.3d 665, 667-68 (7th Cir. 2014) (quoting Jones v. R.R.
Donnelley & Sons Co., 541 U.S. 369, 382 (2004)). Because Monroe’s
Title VI claim was not made possible by a post-1990 amendment,
the four-year statute of limitations does not apply.

App. 49
Springfield, 2012 WL 5471951, at *7 (C.D. Ill. Nov. 9,
2012); Robbins v. DePaul Univ., 2014 WL 7403381, at
*2 (N.D. Ill. Dec. 29, 2014); Rodgers v. Allen Superior
Court, 2017 WL 879635, at *3 (N.D. Ind. Mar. 6, 2017).
Other courts have noted the tension but declined to
take a position. See C.S. v. Couch, 843 F. Supp. 2d. 894,
906 n.15 (N.D. Ind. 2011) (“In the Seventh Circuit,
however, the statute of limitations for Title VI claims
is somewhat unclear.”); Torrespico v. Columbia College,
1998 WL 703450, at *11 n.9 (N.D. Ill. Sept. 30, 1998).
The Court holds that Illinois’s two-year statute of
limitations for personal injury claims applies to claims
under Title VI. First, Beard—the Seventh Circuit case
applying a five-year statute of limitations—involved
claims brought under 42 U.S.C. § 1981 and Bivens v.
Six Unknown Named Agents of the Federal Bureau of
Narcotics, 403 U.S. 388 (1971). But the Seventh Circuit
has since held that the five-year statute of limitations
no longer applies to either claim. See Dandy v. United
Parcel Service, Inc., 388 F.3d 263, 269 (7th Cir. 2004)
(§ 1981); Delgado-Brunet v. Clark, 93 F.3d 339, 342
(7th Cir. 1996) (Bivens). That alone calls into question
Beard’s continued viability. Moreover, the court
decided Beard based on what it perceived as
“fundamental differences between a civil rights action
and a common law tort.” Beard, 563 F.2d at 336. That
reasoning is at odds with the Supreme Court’s decision
in Garcia, which based its holding on the similarities
between tort claims for personal injury and claims
under section 1983. See Garcia, 471 U.S. at 276-80.
And the rationale from Garcia also applies to Title VI.
As Garcia explained, section 1983 protects a “person”
from a deprivation of rights and “creates a cause of

App. 50
action where there has been injury, under color of state
law, to the person or to the constitutional or federal
statutory rights which emanate from or are guaranteed
to the person.” Gomez, 471 U.S. at 278 (quoting
Almond v. Kent, 459 F.2d 200, 204 (4th Cir. 1972)).
Thus, in “the broadest sense, every cause of action
under § 1983 which is well-founded results from
‘personal injuries.’” Id. Likewise, Title VI protects a
“person” from discrimination. And an “injury resulting
from discrimination produces impairments and wounds
to the rights and dignities of the individual.” Baker v.
Bd. of Regents of State of Kan., 991 F.2d 628, 631 (10th
Cir. 1993). As such, Title VI claims can be fairly
characterized as resulting from “personal injuries.”
Indeed, every circuit to consider the question has
held that the appropriate statute of limitations for Title
VI claims is a state’s limitations period for personal
injury claims. See Rozar v. Mullis, 85 F.3d 556, 561
(11th Cir. 1996); Baker, 991 F.2d at 631; Taylor v.
Regents of Univ. of California, 993 F.2d 710, 712 (9th
Cir. 1993); Egerdahl v. Hibbing Cmty. Coll., 72 F.3d
615, 618 (8th Cir. 1995); Lillard v. Shelby Cty. Bd. of
Educ., 76 F.3d 716, 729 (6th Cir. 1996) (in Title IX case
stating that “a number of cases determining the
limitations period for judicial proceedings under Title
VI provide guidance by analogy. Indeed, all of the
circuits deciding the issue have uniformly applied the
state personal injury limitations period.”); Jersey
Heights Neighborhood Ass’n v. Glendening, 174 F.3d
180, 187 (4th Cir. 1999); Thomas v. Care Plus of New
Jersey, Inc., 484 F. App’x 692, 693 (3d Cir. 2012); see
also Frazier v. Garrison I.S.D., 980 F.2d 1514, 1521
(5th Cir. 1993) (affirming and stating that the “district

App. 51
court held that since Title VI, like § 1983, involved a
claim of discrimination in public employment,
considerations of fairness and uniformity dictated the
same statute of limitations apply to a Title VI claim as
to a § 1983 claim.”); Carter v. Univ. of Connecticut, 264
F. App’x 111, 112 (2d Cir. 2008) (noting that the parties
do not dispute that Connecticut’s personal injury
statute of limitations applies to Title VI claim).
And while the Seventh Circuit has not expressly so
held, language from several opinions indicates that
that the forum state’s personal injury statute of
limitations also governs claims under Title VI. See
Sanders v. Venture Stores, Inc., 56 F.3d 771, 775 n.2
(“we will note that federal civil rights actions are
governed by the personal injury statute of limitations
in the state where the alleged injury occurred.”); Bush
v. Commonwealth Edison Co., 990 F.2d 928, 933 (7th
Cir. 1993) (“The Supreme Court has held that in
borrowing statutes of limitations for federal civil rights
cases the courts should look to state statutes governing
personal injury suits.”); Porter v. U.S. Gen. Servs.
Admin, 151 F.3d 1033, 1998 WL 516785 (7th Cir.
1998), amended, 1998 WL 614752 (7th Cir. Aug. 17,
1998) (unpublished) (“We have long held that the
proper statute of limitations for federal civil rights
actions arising out of events in Illinois is two years.”).
Accordingly, the Court finds that Title VI claims are
subject to a two-year statute of limitations in Illinois.
Because Monroe did not file this lawsuit within two
years of the alleged unlawful conduct, his claim is timebarred. As such, the Court does not reach the merits of

App. 52
Monroe’s claim. The Defendants’ motion for summary
judgment on Monroe’s Title VI claim is granted.
II.

Intentional Interference with Contract
(Count V)

To state a claim for tortious interference with
contract, Monroe must establish: “(1) a valid contract,
(2) defendant’s knowledge of the contract,
(3) defendant’s intentional and unjustified inducement
of a breach of the contract, (4) a subsequent breach of
contract caused by defendant’s wrongful conduct, and
(5) damages.” Webb v. Frawley, 906 F.3d 569, 577 (7th
Cir. 2018) (citing Healy v. Metro. Pier & Exposition
Auth., 804 F.3d 836, 842 (7th Cir. 2015)).
Monroe correctly points out that not complying with
provisions in an employee handbook or employment
policy may constitute a contractual breach. R. 86 at 1213. (citing Duldulao v. St. Mary of Nazareth Hosp. Ctr.,
505 N.E.2d 314 (Ill. 1987) and Hentosh v. Herman M.
Finch Univ. of Health Scis./The Chicago Med. Sch.,
734 N.E.2d 125 (Ill. App. Ct. 2000)). But to establish
tortious interference with contract, a breach still must
occur. See Strosberg v. Brauvin Realty Servs., Inc., 691
N.E.2d 834, 845 (Ill. App. Ct. 1998) (“in order to
establish [intentional interference with contract] there
must be evidence of a breach of contract caused by the
defendant.”). Both Duldulao and Hentosh, the cases
Monroe cites to support his position, involved
defendants who breached specific provisions of their
employee handbooks. See Duldulao, 505 N.E.2d at 31920; Hentosh, 734 N.E.3d at 128-29. In contrast, Monroe
does not direct the Court to a single contractual
provision that Columbia failed to follow. Columbia’s

App. 53
Statement of Policy on Academic Freedom, Faculty
Status, Tenure, and Due Process provides that a
“faculty member with a Tenure-Track Appointment has
the right to be evaluated in accordance with the
procedures and criteria set forth in Section VI.” R. 75
Ex. B at 5. In turn, Section VI outlines the tenure
evaluation procedure, including the multitiered review
by department faculty, the Department Chair, the
School Dean, and the Vice President for Academic
Affairs. See id. 8-12. Monroe does not suggest that
Columbia didn’t follow that procedure. Rather, he
broadly asserts that he “was contractually entitled to
a fair tenure process, one untainted by a purposeful
attempt to undermine him.” R. 86 at 12. He then lists
examples of ways Sheridan undermined his tenure bid,
including assigning him to teach only introductory
classes, harming his relationship with potential
collaborators, and refusing to assign him coordinator
positions. Id. at 13. But Monroe does not point to where
his contractual agreement with Columbia guarantees
him the right to teach advanced-level courses and/or
hold a leadership position. Monroe’s entire argument
focuses on Sheridan’s interference without ever
addressing Columbia’s breach. Because Monroe fails to
put forth any evidence that Columbia breached its
agreement with him, his claim fails. The Court grants
summary judgment for Defendants on Count V.
III.

Intentional Interference with Prospective
Economic Advantage (Count VI)

Under Illinois law, to prevail on a claim for tortious
interference with prospective economic advantage, a
plaintiff must show: “(1) a reasonable expectancy of

App. 54
entering into a valid business relationship, (2) the
defendant’s knowledge of the expectancy, (3) an
intentional and unjustified interference by the
defendant that induced or caused a breach or
termination of the expectancy, and (4) damage to the
plaintiff resulting from the defendant’s interference.”
Adelman-Reyes v. Saint Xavier Univ., 500 F.3d 662,
667 (7th Cir. 2007) (quoting Evans v. City of Chicago,
434 F.3d 916, 929 (7th Cir. 2006)).
Defendants argue that Monroe’s claim fails because
he did not have a reasonable expectation of tenure.
Monroe responds that Sheridan acted with
discriminatory animus but otherwise ignores
Defendants’ argument. R. 86 at 13-14. The tenure
process detailed in Columbia’s Statement of Policy on
Academic Freedom, Faculty Status, Tenure, and Due
Process makes clear that a “faculty member with a
Tenure-Track Appointment does not have a right to the
renewal of his or her Appointment or to be granted a
Tenured Appointment at the end of his or her TenureTrack Period[.]” R. 75 Ex. B. at 5. The handbook
contains no provisions that expressly or impliedly
promise a tenure appointment. See Goswami v. DePaul
Univ. 2014 WL 125600, at *6 (N.D. Ill. Jan. 14, 2014)
(“The handbook’s recital of procedures and criteria does
not create a reasonable expectation of receiving
tenure.”). To the contrary, the handbook states that a
“Tenured Appointment is a commitment that Columbia
College Chicago makes only to the most talented
persons who seek to become long-term members of its
faculty.” R. 75 Ex. B at 6.

App. 55
Monroe does not cite a single case in which a court
found a professor had a reasonable expectation of
receiving tenure. And the lack of Monroe’s reasonable
expectation appears particularly clear here given the
initial decision to terminate his employment after his
third-year review. Even in President Carter’s reversal
of that decision, he informed Monroe: “For a faculty
member to be awarded tenure at Columbia College
Chicago, he/she must be able to demonstrate clearly
having achieved the standard of ‘excellence’ as a
teacher; it is the faculty member’s responsibility to
show evidence of this. This standard is articulated
clearly in the College’s Tenure Document. I suggest
strongly that you take advantage of every resource
available to you, to ensure that your teaching continues
to improve.” R. 87 Ex. J (emphasis in original). That is
a far cry from any reasonable assurance that Monroe
would be granted tenure. Indeed, Sheridan’s
Department Chair Report, the All College Tenure
Committee Report, and Love’s letter denying Monroe
tenure highlight similar teaching-related deficiencies
previously identified in Monroe’s third-year review
evaluations. The Court recognizes Monroe’s concern
that implicit bias may partially account for some of his
negative feedback (and that he may have received
better evaluations had Sheridan assigned him to teach
more graduate-level courses). But that is a separate
question from whether Monroe ever had a reasonable
expectation of receiving a tenure appointment. On this
point, Monroe puts forth no evidence. See Williams v.
Weaver, 495 N.E.2d 1147, 1152 (Ill. App. Ct. 1986)
(“although [plaintiff] alleges numerous acts of wrongful
conduct by the various defendants, [he] has presented
no facts establishing the existence of a reasonable

App. 56
expectancy of an economic advantage or a continuing
business relationship.”). The Court is thus left to
assume that Monroe merely hoped he would be granted
tenure. And “the mere hope of continued employment,
without more, does not . . . constitute a reasonable
expectancy.” Montes v. Cicero Pub. Sch. Dist. No. 99,
141 F. Supp. 3d 885, 900 (N.D. Ill. 2015) (alterations in
original) (quoting Williams, 495 N.E.2d at 1152)
(holding that plaintiff did not have a reasonable
expectation of continued employment); see Goswami,
2014 WL 125600, at *7 (plaintiff did not have a
reasonable expectation of tenure even though she had
consistently positive reviews because the tenure
decision was highly discretionary). Accordingly, the
Court grants summary judgment for Defendants.4
Conclusion
For the reasons stated above, the Court grants the
Defendants’ motion for summary judgment [R. 73].

4

Moreover, as an agent of Columbia, Sheridan holds a qualified
privilege that protects him from being sued for tortious
interference. Adelman-Reyes, 500 F.3d at 668. Sheridan loses that
privilege if he acted “maliciously.” Id. In this context, malice
requires a “direct intention to injure” or a “reckless disregard” of
Monroe’s rights and the consequences that may result to him. Id.
The Court doubts that Sheridan’s conduct rises to the level of
malice required for him to lose his privilege. See id. (evidence of an
ongoing conflict between tenure candidate and school dean and
comments without proper support in dean’s adverse tenure
recommendation insufficient to show malice). Nevertheless,
because Monroe has failed to put forth evidence to fully satisfy the
elements of his tortious interference claims, the Court need not
make that determination here.

App. 57
ENTERED:
/s/ Thomas M Durkin
Honorable Thomas M. Durkin
United States District Judge
Dated: March 30, 2020

App. 58

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Case No. 17 C 5837
Judge Thomas M. Durkin
[Filed: March 30, 2020]
__________________________________________
VAUN MONROE,
)
)
Plaintiff(s),
)
)
v.
)
)
COLUMBIA COLLEGE CHICAGO and
)
BRUCE SHERIDAN,
)
)
Defendant(s).
)
__________________________________________)
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
G in favor of plaintiff(s)
and against defendant(s)
in the amount of $
,
which

G includes pre–judgment interest.
G does not include pre–judgment
interest.

App. 59
Post-judgment interest accrues on that amount at
the rate provided by law from the date of this
judgment.
Plaintiff(s) shall recover costs from defendant(s).
___________________________________________________
X in favor of defendant(s) COLUMBIA COLLEGE
CHICAGO and BRUCE SHERIDAN and against
plaintiff(s) VAUN MONROE
Defendant(s) shall recover costs from plaintiff(s).
___________________________________________________
G other:
___________________________________________________
This action was (check one):
G tried by a jury with Judge
presiding, and the
jury has rendered a verdict.
G tried by Judge
without a jury and the above
decision was reached.
X decided by Judge Thomas M. Durkin on a motion.
Date: 3/30/2020
Thomas G. Bruton, Clerk of Court
Claire E. Newman, Deputy Clerk

App. 60

APPENDIX F
United States Court of Appeals
FOR THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604
April 12, 2021
No. 20-1530
[Filed: April 12, 2021]
Before
DIANE S. SYKES, Chief Judge
JOEL M. FLAUM, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
__________________________________________
VAUN MONROE,
)
Plaintiff-Appellant,
)
)
v.
)
)
COLUMBIA COLLEGE CHICAGO and
)
BRUCE SHERIDAN,
)
Defendants-Appellees.
)
__________________________________________)
Appeal from the United States
District Court for the Northern
District of Illinois, Eastern
Division.

App. 61
No. 1:17-cv-05837
Thomas M. Durkin,
Judge.
ORDER
On consideration of the Petition For Panel
Rehearing, filed by Plaintiff-Appellant on April 2, 2021,
all members of the original panel have voted to DENY
the Petition for Rehearing.
Accordingly, the Petition for Panel Rehearing is
DENIED.

